2311 Douglas Street
Omaha, Nebraska 68102-1214

COSKLE.

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-157

EDWARD A. CANIGLIA,
Petitioner,
v.
ROBERT F. STROM, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIREARMS) POLICY COALITION, FIREARMS POLICY FOUNDATION, AND
INDEPENDENCE INSTITUTE IN SUPPORT OF PETITIONER in the above entitled case

complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

7989 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of January, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public

 

GEMERAL NOTARY-State of Nebraska
RENEE J. GOSS
: My Comm. Exp. September 8, 2023

Qudiavr-h, hale

40515
